"53 50 ORIGINAL
filed

IN THE

JUN 0 4 2021

SUPREME COURT OF THE UNITED STATE^®gg^g^RK

Bobby "Earl" Keys

— PETITIONER

(Your Name)
vs.

United States of America

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Mr.Bobby Earl Keys, 03344-043
(Your Name)

P.O.Box 1031
(Address)

Coleman, Florida

33521-1031

(City, State, Zip Code)

Pro Se/ Incarcerated
(Phone Number)

QUESTION(S) PRESENTED

DID THE FIFTH CIRCUIT COURT OF APPEALS APPLIED THE WRONGED APPELLATE
STANDARD OF REVIEW TO CLAIM THAT DISTRICT COURT COMMITTED STATUTORY ERROR
UNDER 18 U.S.C.§§3142(g), 3553(a), BY FAILING TO ADDRESS THE STATUTORY
FACTORS WHETHER IT IS "NECESSARY TO MAINTAIN THE PRISONER TERM OF IMPRISONMENT
DESPITE THE EXTRAORDINARY AND COMPELLING REASONS [FOR GRANTING RELEASE]
IN ORDER TO ACHIEVE THE PURPOSES OF PUNISHMENT THAT COMPELLED THE COURT TO
IMPOSE THE ORIGINAL TERM OF IMPRISONMENT?"

T1ST OF PARTIES
All parties do not appear in the caption of the case on the coverage page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
1. Shundra H.Cole, Assistant U.S.Attorney
2. Gaines H. Cleveland, Assistant U.S.Attorney
3. Darren J.LaMarca, Acting U.S.Attorney
4. Carlos Tanner III, Assistant U.S.Attorney
5. Honorable Judge Ozerdene, U.S.District Judge
6. Bobby Earl Keys, Petitioner
7. Lyle W. Cayce, Clerk - U.S.Court of Appeals, Fifth Circuit
8. Erica L. Rose, Assistant United States Attorney

RELATED CASES
UNITED STATES V. BOBBY EARL KEYS, U.S.DIST.NO. l:llcr79HSO, SOUTHERN DISTRICT
OF MISSISSIPPI, SOUTHERN DIVISION: AND
UNITED STATES V. BOBBY EARL KEYS, U.S.COURT APPEAL NUMBER 20-61192, FIFTH
CIRCUIT COURT OF APPEALS

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A
APPENDIX B APPENDIX C -

- Appeal Court Judgment April 30,2021
Copy of the District Court Judgment dated December 1,2020
Compassionate Release Motion filed with District Court

APPENDIX D “ Medical Records i.e. sick call requests/medical care ignored
APPENDIX E APPENDIX F

Rehabilitation Data from the Bureau of Prisons ("BOP")

TABLE-OP
CASES

PAGE NUMBER

Dillion v. United States, 560 U.S. 817 (2010)

8

United States v. Abuhamra, 389 F.3d 309, 317 (2nd Cir.2004)

10

United States v. Brooker, 976 F.3d 228, 235-237 (2d Cir.2020)

3

United States v. Dominguez, 787 F.2d at 707

9

United States v. Ferranti, 66 F3d 540, 542 (2nd Cir.1995)

10

United States v. Gee,

5

U.S.

, 2021 WL 1168980 (10th Cir.)

United States v. Gunn, 980 F.3d 1178, 1181 (7th Cir.2020)

3

United States v. Jones, 980 F.3d 1098 (6th Cir.2020)

3

United States v. Long, Case No. 20-3064, 2021 U.S.App.LEXIS
14682 (DC Cir.May 18,2021)

3

United States v. McCoy, 981 F.3d 271, 281 (4th Cir.2020)

3

United States v. Riccardi, 989 F.3d 374 (6th Cir.2021)

5

United States v. Shkambi, Case No. 20-40543, 2021 WL 1291609
(5th Cir.April 17,2021)
United States v. Wallen, 820 F.3d 406, 407 (11th Cir.2016)

4, 10
8

- STATUTES/RULES:
First Step Act, Section 603

3,6,10

18 U.S.C. Section 3142(g)

7,8,9

18 U.S.C.Section 3582

3,6, 8

18 U.S.C.Section 3553(a)

3,7,8,9

28 U.S.C. Section 2255
USSG Section 1B1.13
USSG App.C, amend 799

4
3,5, 6
7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix __1___ to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 30,2021
[ x) No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
A federal prisoner may file a motion or bring a motion under title
18, United States Code, Section 3582, as amended by the First Step Act
(often referred to as the compassionate release statute). According to the
statute, the courts "may reduce the term of imprisonment after considering
the factors set forth in section 3553(a) to the extent they are applicable,
if it finds that extraordinary and compelling reasons warrant such a
reduction and that such a reduction is consistent with application policy
statements by the [United States] Sentencing Commission." 18 U.S.C.§3582(c)
(l)(A)(i). The factors listed in §3553(a) include the nature of the crime,
the defendant's characteristics and history, the danger to the public, and
the sentencing range. 18 U.S.C.§3553(a).
. The Policy Statement [USSG §1B1.13] has not been amended since the First
Step Act was passed, so the USSC has not yet weighed in on the change. But
several circuit courts that have addressed this question ["Whether the
Policy Statement lB1.13's applies to motions for compassionate release
filed by prisoners"?] reached the conclusion that §lB1.13's text does not
applied to compassionate releast motions filed by prisoners. See, United
States v. Jones, 980 F.3d 1098 (6th Cir.2000); United States v. McCoy, 981
F3d 271, 281 (4th Cir.2020); United States v. Brooker, 976 F3d 228, 235-237
(2d Cir.2020)("[T]he First Step Act freed district courts to consider the
full slate of extraordinary and compelling reasons that an imprisoned person
might bring before them in motions for a compassionate release"]; United
States v. Long, Case No.20-3064, 2021 US App LEXIS 14682 (DC Cir.May 18,2021)
3

(holding that Guido line 1B1.13 dues "not limit compassionate rel pasp motions
when those motions are brought by prisoner instead of the BOP), including
the Fifth circuit also as announced in United States v. Shkambi, Case No.
20-40543, 2021 WL 1291609 (5th Cir.April 7,2021)(same). Neither Application
Note 1(D), nor anything else in the now-outdated version of the Guideline
§1B1.13 limits the district court discretion. See USSG §1B1.13.
Secondly, in balancing the §3553(a) Statutory Factors the government stated
that the "applicable” Factors are "the need for the sentence imposed to
reflect the seriousness of the offense, to promote respect for the law, to
provide just punishment for the offense, and to afford adequate deterrence
to criminal conduct." But the only specific argument the government put
forward as to why these factors necessitate Petitioner's continued incarceration
boils down to its assertion, backed up by nearly three-decade year old prior
armed bank robbery offense, that relief should be denied. [Doc.115]. This
was a statutory procedural error, in assessment of .the evidence the judge
failed to consider (1) prison records, Bureau of Prisons ["BOP"] data
established Petitioner's non-threat to the community and now have designated
him as minimum-custody-camp placement eligible; (2) non-violent nature of
his primary mail fraud offense; (3) served approximately 67% of his applicable
term of imprisonment; (4) the plea agreement itself is invalid because it
contain[ed] explicity provision that restricted the Petitioner's from filing
appeal and any collateral attack proceeding under 28 U.S.C.§2255 whatsoever
and (5) In balancing

the Section 3553(a) factors with respect to the

community safety factor the district court had authority to consider sentencing
law changes, including claim[s] that, "if he would be sentence today he would
not be subject to harsh 150-month prison term because the original prison

4

"result in unlawful imprnpnr nvp.-w^4rrr 1

v. Gee,

U.S.

U

f USSG §2B1.1", citing United States

, 2021 WL 1168980 (10th Cir.Mar.29,2021), and United

States v. Riccardi, 989 F.3d 374 (6th Cir.2021)."Ibid.

5

STATEMENT OF THE CASE
Compassionate Release is a statutory discretionary sentence reduction for
"extraordinary and compelling reasons" as permitted in certain circumstances
by 18 U.S.C.§3582(c)(l)(A). ft is typically reserved for extreme cases where
an incapacitated or sick inmate is able to demonstrate, among other things,
that he is suffers from a severe condition that substantial diminishes his
ability to care for himself in prison and from which he is not expected to
recover. USSG §1B1.13, comment. (n.l)(A)(ii). The COVID-19 pandemic has led
to a todal wave of compassionate release motions in district courts across
the country. This Writ of Certiorari arise from one of them. Bobby Earl Keys
is in relatively bad health and the BOP's has prescribe several medications
in effort to provide some treatment to his high blood pressure, Obesity,
high cholesterol, Type 2 Diabetes via insulin dependent, including many other
alignments-medical conditions such as stomach hernia [i.e. been untreated
due to health risk of hernia surgery] and neuropathy [i.e. been untreated
despite of tingle, numbness, rash, and burning which may caused legs or arms
amputation].
In October 2020, with more than half of his 150 month prison sentence
been served, Petitioner's file in the district court request for compassionate
release pursuant to the First Step Act of 2018 and 18 U.S.C.§3582(c)(l)(A).
tje initially argued that compassionate release was warrant because (1) he
was 58 years old; (2) he suffered from high blood pressure, congestive
heart failure, diabetes-mellitus, obseity and neuropathy; and (3) if he
were to contract COVID-19, he would be at increased risk of seriously
complications accordance with CDC-guidance risk factors due to his pre-existing

6

-medical-condildxnts-and age. He also provide medical records of his current
Health or his Medical History. Appendix 4.
The district courtidenied compassionate release because the Petitioner had
Vnot sufficiently demonstrated that he has a serious medical condition that
substantially diminishes his ability to care for himself" See Appendix 5
(citing USSG §1B1.13, comment (n.l). Subsequently, the district court also
denied relief under §3553(a) because of nearly three-decade-year old prior
armed bank robbery offense is evidence that he is danger to the community
or person/ 18 U.S.C.§§3142(g), 3553(a).
Petitioner appeal the district court's determination that his health and the
pandemic are nottextraordinary and compelling reasons for compassionate
release. And, district court committed procedural statutory error under
§§ 3142(g), 3553(a) assessment of the evidence that he has been a danger in
the past, whereas his past conduct bear no connection to any likelihood of
future misconduct.
Given fact[s] that Petitioner's is suffering from stomach-hernia
medical condition that flare up in his gut every time he sneeze or cough
causing unbearable pain at time, including neuropathy medical condition
that have got so severe causing numbness, tingle, burning in feets and may
result[ed] in possible amputation, both of these medical conditions had
went untreated by the BOP's Health Service Provider, taken together, met.-statutory Policy Program Statement U.S.S.G. App. C, Arhend. 799 at 132
(effective Nov. 1,2016) criteria that his medical conditions fall into
that Category because if continue go untreatedcby-BOP's and its Health
Care Service such medical conditions would "substantially diminished his
ability to provide self-care within Coleman-Low Facility".

7

REASONS FOR GRANTING THE PETITION
In reviewing the petitioner claims on appeal the appellate court's
applied the wronged appellate standard of review to his claim that "district
court committed statutory error under U.S.C.§§§, 3142(g), 3553(a) and USSG
1B1.1 et seq"; by failing to address the statutory factors "evidence that
Petitioner's has been a danger in the past, which past conduct does

not

suggests the likelihood of any future misconduct". See United States v. Gunn,
980 F.3d 1178, 1181 (7th Cir.2020)(finding that until §1B1.13 is amended
to reflect the First Step Act's change to its procedures, district judges
must operate under the statutory criteria-extraordinary and compelling
reasons - subject to deferential appellate review).
Several other appellate courts that have conduct appellate review have
held that, "appellate review is subject to de novo both determinations
about a defendant's eligibility for a Section 3582(c) sentence reduction
tl

and questions of statutory intrepretation. United States v. St. Amour,
886 F.3d 1009, 1013 (11th Cir.2018); United States v. Jones, 962 F.3d 1290,
1296 (11th Cir.2020); see also Pillion v. United States, 560 U.S. 817, 82627, 130 S.Ct. 2683, 177 L.Ed.2d 271 (2010)(treating the eligibility
determination as one of statutory intrepretation).
"Review de novo the interpretation of a sentencing guideline." See
United States v. Warren, 820 F.3d 406, 407 (11th Cir.2016).
DISCUSSION
Here, a Fifth Circuit Court of Appeals panel applied wronged appellate
standard of review to a claim that district court committed statutory error

8

under 18 U.S.C.§§§3142(g_),„3553(a) and US5G 1B1.1 et seq.. In reviewing his
legal claim[s] that district court committed statutory procedure error in
determined that he's met the criteria been dangerous to the community or
any person.

18 U.S.C.§§§ 3142(a), 3553(a) and USSG 1B1.1 et seq. The

petition for a Writ of Certiorari should be granted.
As discussed in detailed below, Petitioner Keys had presented "some
evidence" favorable to him relevant to the endangerment factors. While the
government's relied exclusively on nearly three-decade-old prior armed bank
robbery [1992] offense support it assessment that Petitioner's is a danger
to the community. But the Petitioner's may not be denied compassionate
release "based on evidence that he has been a danger nearly three-decade
ago in thei. past", his past conduct is relevant only to the extent it
suggests he will endanger the community in the future. See United States
v. Dominguez, 787 F.2d at 707.
The Government evidence regarding the 1992 armed back robbery prior offense
does not even attempt to connect the Petitioner's in the past to any
potential future dangerousness. Otherwise, the Government-District Court's
predicate finding reflects a misperception of §§§3142(g), 3553(a) and 1B1.1
et seq."
The FIRST STEP Act plainly provides a potential avenue of compassionate
release to prisoners who have served over 10 years, a population that likely
received lengthy sentence by committing serious crimes decades prior. As
evidence by the Petitioner's record of rehabilitation and lack of dangerousness
in the past 29 years must be viewed holistically in concert with the extremely
violent conduct back in 1992. These factors, on balance, such as entired
record, the Petitioner's history and chatacteristics during the past 29
years demonstrate his rehabilitation and lack of dangerousness.

9

■ As a rule, the ■clear enm1 appellate standard applies not only to the factual'
underlying the district court's decision, but "also to its assessment, based
on those predicate facts, as to the danger presented by defendant release."
United States v. Abuhamra, 389 F.3d 309, 317 (2nd Cir.2004). That is, 7[t]he
determination that "no condition or combination of conditions will reasonably
assure the safety of the community" from a purportedly dangerous defendant
is a mixed question of law and fact which court of appeals review for clear
error." United States v. Ferranti, 66 F.3d 540, 542 (2d Cir.1995)(citation
ommitted); but see United States v. Shajkur, 817 F.2d 189, 197 (2d Cir.
1987)("[T]he court's ultimate finding may be subject to plenary review if
it rests on a predicate finding which reflect a misperception of a legal
rule applicable to the particular factors involved."); United States v. Gunn,
980 F.3d 1178, 1181 (7th Cir.2020)(finding that until §1B1.13 is amended
to reflect the FIRST STEP Act's change to its procedure, district judges
must operate under the statutory criteria-extraordinary and compelling
reasons- subject to deferential appellate review).
In reviewing statutory finding or conducting its assessment, based on those
predicate facts, as to the danger presented by defendant release, the
appellate court's 'abuse of discretion' appelate standard of review was wronged,
and thus, writ of certiorari should be granted in order to resolve conflict
amongs of circuits i.e. Fourth, Fifth, Sixth, Seventh and Eleventh that has
been applying different appellate standard in reviewing compassionate release
judgments.

10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,Bobby Earl Keys, Pro Se

Date:

June 24,2021

11

